/

20-7015
3fn tlie
Supreme Court of tfte Untteb States!

o^7
ZrH,

DR. SABINA BURTON,
Plaintiff-Appellant-Petitioner
v.

i

/
% /

Appellate Case: 20-1579
District Case: 3:14-cv-00274-jdp

BOARD OF REGENTS UNIVERSITY OF
WISCONSIN, DR. THOMAS CAYWOOD,
DR. ELIZABETH THROOP and DR.
MICHAEL DALECKI,
Defendants-Appellees

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

RECEIVED
FEB - 1 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Petitioner, SABINA BURTON respectfully requests that this Court grant her
Motion for Leave to Proceed in forma pauperis on her attached petition for writ of
certiorari. In support of this Motion, Plaintiff states as follows:
1. Petitioner herewith submits her Affidavit in Support of Motion indicating her
financial status.
2. Plaintiff brings this appeal pro se because the district court granted, over
Petitioner’s strenuous objections, her former attorney’s motion to withdraw and
because of her financial circumstances.
3. Petitioner previously moved the district court for permission to appeal in forma
pauperis on October 4, 2020 in her second federal lawsuit in the U.S. District Court,
Western District of Wisconsin (Madison), CASE No. 3:17-cv-00036-jdp. (Burton IIDkt. 123). The district court granted permission on October 16, 2020. (Burton IIDkt. 127).
WHEREFORE, Plaintiff respectfully requests that this Court grant this Motion for
leave to proceed in forma pauperis.

Respectfully submitted,

Dated: January 25, 2021
Sabina Burton
Petitioner
2689 S. River Rd.,
Galena IL 61036
Telephone: 608-331-0203

FORM 4.
AFFIDAVIT ACCOMPANYING MOTION FOR
PERMISSION TO APPEAL IN FORMA PAUPERIS
In the Supreme Court of the United States

DR. SABINA BURTON,
Plaintiff-Appellant-Petitioner
Appellate Case: 20-1579

v.

District Case: 3:14-cv-00274-jdp
BOARD OF REGENTS UNIVERSITY OF
WISCONSIN, DR. THOMAS CAYWOOD,
DR. ELIZABETH THROOP and DR.
MICHAEL DALECKI,
Defendants-Appellees

Affidavit in Support of Motion

Instructions

I swear or affirm under penalty of
perjury that, because of my poverty,
I cannot prepay the docket fees of
my appeal or post a bond for them. I
believe I am entitled to redress. I
swear or affirm under penalty of
perjury under United States laws
that my answers on this form are
true and correct. (28 U.S.C. § 1746;
18 U.S.CJ 1621.)
0

Complete all questions in this
application and then sign it. Do not leave
any blanks: if the answer to a question is
"0," "none," or "not applicable (N/A),"
write in that response. If you need more
space to answer a question or to explain
your answer, attach a separate sheet of
paper identified with your name, your
case's docket number, and the question
number.

Signed:
Petitioner, Sabina Burton
2689 S. River Rd.,
Galena IL 61036
Telephone: 608-331-0203

Date:

Jctvwa <ry 23, ZoZ./
/

My issues on petition are:
1. Whether discovery violations can constitute the type of extraordinary
circumstances which would justify relief on the basis of fraud on the court,
and what test should be used to determine whether fraud on the court has
occurred in circumstances involving discovery violations and newly
discovered evidence.
2. Whether the district court abused its discretion by denying Burton’s Rule
60(b)(6) motion and her Rule 37 motion, which the district court construed to
allege fraud on the court, where it failed to consider the merits; applied an
inapplicable time limit; failed to consider the factors mandated by Congress
in the Speedy Trials Act; failed to decide whether Defendants or their
attorneys committed spoliation of evidence; failed to decide whether
Defendants or their attorneys violated policy or law; failed to decide whether
Defendants or their attorneys committed discovery violations; failed to decide
whether Defendants or their attorneys acted in bad faith; relied on clearly
erroneous factual determinations; failed to consider that Burton was
prejudiced; applied an inapplicable one year time limit; failed to consider
Burton’s inability to bring the motion within one year; failed to adequately
articulate its reasoning for the decision; and failed to consider the public
importance of this case.
3. Whether the appellate court sanctioned the district court’s abuse of discretion
by failing to meaningfully review the case.

1. For both you and your spouse estimate the average amount of money received
from each of the following sources during the past 12 months. Adjust any
amount that was received weekly, biweekly, quarterly, semiannually, or
annually to show the monthly rate. Use gross amounts, that is, amounts
before any deductions for taxes or otherwise.
Average monthly
amount during
Amount expected
the past 12
next month
months
Spouse
You
Spouse You

Employment
Self-employment
Income from real
property (such as rental
income)
Interest and dividends
Gifts
Alimony
Child support
Retirement (such as
social security, pensions,
annuities, insurance)
Disability (such as social
security, insurance
payments)
Unemployment
payments
Public-assistance (such
as welfare)
Other (specify):
Total monthly
income:
See Attached.

$_0__ $_0.
$_158_$_158

$_0_ $_0_
$__158_ $_158_

$_770_ $_770_ $ 0
$_13____ $_13_$__ 0_
$_100_ $_100_ $_0_
$_0_ $_0__ $ 0
$_0_ $_0_ $_0_

$_0__
$ 0
$ 0
$ 0
$_0__

$_96_$ 0

$__576_$_0_

$ 0

$ 0

$_0__

$ 0

$_0_ $_0_

$_0_

$_0_ $_0_ $_0_
$_0_ $_0_ $_0_

$_0_
$__0_

$_1,137 $1,041

$_158

$_734

$ 0

2. List your employment history for the past two years, most recent employer
first. (Gross monthly pay is before taxes or other deductions.)

Employer

Gross monthly
pay

Dates of
Employment

Address

.None.

See Attached
3. List your spouse's employment history for the past two years, most recent
employer first. (Gross monthly pay is before taxes or other deductions.)
Employer

Address

Dates of
Employment

Gross monthly pay

None

4. How much cash do you and your spouse have? $_300.
Below, state any money you or your spouse have in bank accounts or in any other
financial institution.
Financial Institution Type of Account

US Bank.
US Bank.
US Bank

IRA
.Checking__
.Savings___
Dupaco Credit Un .checking__
Dupaco Credit Un .Savings_

Amount you have
$11,116__
.$2,453*__
0.
0

275*

Amt spouse has
0

.$2,453*__
0
0

275*

*Money in checking and savings accounts are due for numerous debts. We are
making minimum payments to credit card debt, attorney fees, loans and other
mounting debts with no way to pay them off.
If you are a prisoner seeking to appeal a judgment in a civil action or proceeding,
you must attach a statement certified by the appropriate institutional officer
showing all receipts, expenditures, and balances during the last six months in your

institutional accounts. If you have multiple accounts, perhaps because you have
been in multiple institutions, attach one certified statement of each account.
5. List the assets, and their values, which you own or your spouse owns. Do not fist
clothing and ordinary household furnishings.
Home (Value)
$250,000.

Other real
estate (Value)

Make & year: Subaru 2015_
Model: _Outback__
Registration # 660-464_

0

See Attached

Motor Vehicle
#2 (Value)
Make & year: _Dodge
2005_$6,000
Model: Ram 1500_
Registration # 2692783

Motor Vehicle #1 (Value)

Other assets (Value)

Other assets (Value)

2015 Subaru
Impreza_$13,000_
_ Reg #660-465__

1967 tractor $3,500, Riding
mowers $500_
_1995 Skid steer $2,500
_Horse trailers $2,000

6. State every person, business, or organization owing you or your spouse money,
and the amount owed.
Person owing you or your
spouse money
_________ none___________

Amount owed to Amount owed to your
you
spouse

7. State the persons who rely on you or your spouse for support.
Name [or, if under 18, initials only]
______ None___________________

Relationship

Age

8. Estimate the average monthly expenses of you and your family. Show separately
the amounts paid by your spouse. Adjust any payments that are made weekly,
biweekly, quarterly, semiannually, or annually to show the monthly rate.
See Attached
Rent or home-mortgage payment (including lot rented for mobile
home)
Are real estate taxes included? [ ] Yes [X]No
Is property insurance included? [ ] Yes [X]No
Utilities (electricity, heating fuel, water, sewer, and telephone)
Home maintenance (repairs and upkeep)
Food
Clothing
Laundry and dry-cleaning
Medical and dental expenses
Transportation (not including motor vehicle expenses)
Recreation, entertainment, newspapers, magazines, etc.
Insurance (not deducted from wages or included in mortgage
payments)
Homeowner's or renter's
Life
Health
Motor vehicle
Other: (horse and rental liability)
Taxes (not deducted from wages or included in mortgage
payments) (specify): Property tax.
Installment payments
Motor Vehicle
Credit card (US Bank Visa and lines of credit): Min pmt
Credit card (Sam’s Club): Minimum pmt
Credit card (American Express): Minimum pmt
Credit Card (Chase Visa -Amazon): Minimum pmt
Other:
Alimony, maintenance, and support paid to others
Regular expenses for operation of business, profession, or farm
(attach detailed statement)
Other (specify):
Total monthly expenses:

You Your spouse
$ 193_ $ _193

$343
$ 450_
$ 400_
$_100
$ _50_
$ _500
$ 25_
$ 100_

$343
$ 450_
$ 400_
$ JLOO
$ _50_
$ 500_
$ 25_
$ 100_

$ _61_
$ _72_
$ 264_
$ _57_
$_100
$ 186_

$ _61_
$ 198_
$ _0_
$ _57_
$_100
$ 186_

$ 207_
$ _145
$0_
$_10_
$ _10_
$ _0
$_0_
$555

$ _207
$ 145_
$ _0_
$_10_
$ _10_
$ _0_
$_0_
$ 555_

$____

$_____

$3,828 $3,690

9. Do you expect any major changes to your monthly income or expenses or in your
assets or liabilities during the next 12 months?
[X] Yes[]N
If yes, describe: See attached.
10. Have you spent-or will you be spending-any money for expenses or attorney fees
in connection with this lawsuit?
[X] Yes [ ] No
If yes, how much? $ _447,815

See attached.

11. Provide any other information that will help explain why you cannot pay the
docket fees for your appeal.
See Attached.
12. State the city and state of your legal residence.
Galena, Illinois
Your daytime phone number: ( 608) 331-0203
Your age:

55

Your years of schooling:

20

Attachment to AFFIDAVIT ACCOMPANYING MOTION FOR
PERMISSION TO APPEAL IN FORMA PAUPERIS
1. Income
Self Employment: My husband and I started a horseback riding business in
January 2020 and are also trying to provide a petting zoo service. This has provided
me with therapy for my PTSD and provides a small income. We expect business will
be slow during winter months and to improve somewhat next spring and summer.
Income from Real Property: We started a vacation rental business in January 2020,
but we were informed by the county that we must stop advertising and use of the
units until we receive special use zoning and a guest accommodation license. We
have obtained the special use zoning, which required an investment of
approximately $18,275 for a new septic system. We also spent $1,325 for fencing

damaged by construction access. The prospects for this business are good, but we
used credit cards to complete the septic system and are paying minimum payments
each month to stay solvent. We are still working on getting a guest accommodation
license and hope to have it within a month, if we pass the inspection. Until we get
the license we will make no income from our empty rental units.
Retirement: I am now receiving retirement benefits of $576 per month. The
amount of retirement benefit is small because my career was unfairly cut short.
Disability: I have applied for disability due to my severe ulcers, PTSD, and knee
injuries. I have not been informed yet whether my application will be approved.
Illinois Department of Human Services Division of Rehabilitation Services,
Disability Determination have scheduled me for my second medical assessment in
early January 2021.1 might get something, but I can’t count on anything.

2. Employment History
Employment: I graduated at the top of my class in college. I got my PhD from one of
the world’s most prestigious universities in the field of Criminal Justice, University
of California Irvine, where I excelled. Since I was fired from my position as a
tenured criminal justice professor at UW Platteville, Wisconsin, and my reputation
was unfairly ruined, I have not been able to obtain employment in my chosen field.
My husband and I bought a horse stable that needed much repair. We have been
training our 7 horses and repairing the stable. This has generated no income, but
has increased the value of the property and the value of our fledgling horse
business. In order to accomplish the repairs, we needed to steeply mortgage the
property. Our loans using the property as collateral amount to about 100% of the
market value of the property. If we are able to obtain the guest accommodation
license the value of the property should increase and we should begin to make good
income.

5. Assets
Our home is an equestrian center that was very run down when we bought it as a
fixer upper. Our name is on the deed, but we borrowed more against the property
than the $250,000 we paid for it. We have a mortgage for $230,760 with a balloon
payment due in a few short years. We borrowed another $70,000 in exchange for
lifetime use of one of the units. If we sold the property, we may owe more than we
get from the sale. Value of the property should increase if we are able to obtain the
required licensing to run our vacation rental business.

8. Expenses
Farm Expenses: We have seven horses and several petting zoo animals. These are a
great draw for vacation rentals and are necessary to operate the business as we
plan. These are expenses we are paying even though we are not making any money
on a rental business yet and even though winter months are slow for the horse and
petting zoo business.
Land Line Telephone:
Cell phone/internet/advertising:
Hay and feed for horses and other farm animals:
Veterinary costs
Farrier (horse hoof trimming)
Total Monthly Farm Expenses

$70
$350
$480
$300
$150
$1,350

9. Changes
We are prohibited from using our rental units for transient rentals until we correct
compliance issues and get licensed, so our income from that business is expected to
be zero unless and until we can get a guest accommodation license. This is a recent
occurrence that dashed our expectations for income in coming months. Instead of
making money from rentals we will need to spend money we don’t have to get a
guest accommodation license. The horse business has always been planned as
income secondary to the guest accommodations and is not expected to make much
income. My retirement income will not offset the losses we suffer. Meanwhile,
expenses have been increasing. The animals still need to eat and to be cared for and
maintenance and repairs still needs to be performed. We may lose our home and the
business we’ve worked hard to get started. Covid 19 may affect our planned rental
business as well. We may need to operate at a reduced capacity due to pandemic
concerns, which would limit our income even if we are able to get the guest
accommodation license soon.

10. Legal Costs
The cost of lawsuits associated with the events which led to my dismissal and
ruination of my career, reputation, and health have been staggering. Never would I
have believed at the beginning of this arduous journey that I would have had to
spend half a million dollars to gain opportunity to finally tell my story. The
financial toll this has taken on me and my family is devastating. I still owe
attorneys for work they completed, and I cannot pay them right now.

11. Other Information
I lost my career, my reputation and my health due to the retaliation I received at
UW Platteville. Now, my family’s financial wellbeing has been destroyed due to the
extensive legal costs and protracted legal battles I and my family have been forced
to endure. The university failed to provide me with one year of severance pay, as it
is required to do for termination of a tenured faculty member. The university fired
me unfairly and their disciplinary findings caused the unemployment office to deny
my request for unemployment insurance payments after my termination. I am
plagued with health issues. Our daughter lost her job due to the Coronavirus and
the unemployment office was extremely slow to provide her with any aid and now
has suspended the aid she was receiving until she can verify her identity again. We
aided her financially while she awaited a decision by the unemployment
department and wish we could do more.
My husband and I finally started our own rental business in late December 2019.
The pandemic shut us down for a few months and when we finally got going again,
the county shut us down for the rentals due to compliance issues which have been
expensive to rectify, and more costs may await us. We were turned down for a
business loan, so the only way we could pay for the investment was by using credit
cards, which currently have a balance due of $31,586 or selling cars or equipment
we need to operate the farm and vacation rental business.
Pain in my knees is very bad. I really need an operation to replace my knees, but
that may need to wait a long time. My husband and I are forced to pay for our
necessary expenses with our credit cards, going further in credit card debt until our
business makes money again. The stress of not knowing how to afford living and
health expenses has further aggravated my already debilitating anxiety and
depression. I believe with all my heart that the university has retaliated against me
for having reported sexual harassment and abuse. But this is not just a feeling. I
have proof. For the past 8 years I have been fighting for a fair and unbiased hearing
and have never been afforded one.
Please allow me to proceed in forma pauperis. I believe strongly that my case can
make a difference in the way universities, and other employers, handle sexual
harassment complaints and make the world safer for potential victims of sexual
harassment, and their advocates. I could have saved myself and my family a lot of
pain and expense by ignoring the injustices I have uncovered. But this is not just
about me, or my family. This case is about all the victims who will come after me if I
am not able to continue this fight to effect change, and all the people who will never
be victimized if I am.

